Nos. 19-267 & 19-348

In the Supreme Court of the United States
OUR LADY OF GUADALUPE SCHOOL,
Petitioner,
v.
AGNES MORRISSEY-BERRU,
Respondent.

ST. JAMES SCHOOL,
Petitioner,
v.
DARRYL BIEL,
Respondent.
CERTIFICATE OF SERVICE
I, Donald M. Falk, counsel for Independent Women’s Law Center hereby
certify that on this 10th day of February, 2020, I caused three copies of the Brief of
Amicus Curiae Independent Women’s Law Center in support of Petitioners to be
served by overnight delivery on the following counsel:
Jennifer Lipski
JML Law, A Professional Law Corp.
5855 Topanga Canyon Blvd., Suite 300
Woodland Hills, CA 91367
Tel: (818) 610-8800
jennifer@jmllaw.com
Counsel of Record for Respondents

Eric Rassbach
The Becket Fund for Religious Liberty
1200 New Hampshire Ave., NW, Suite 700
Washington, D.C. 20036
Tel: (202) 955-0095
erassbach@becketlaw.org
Counsel of Record for Petitioners

I further certify that all parties required to be served have been served.
/s/ Donald M. Falk
Donald M. Falk
Mayer Brown LLP
3000 El Camino Real
Palo Alto, CA 94306
(650) 331-2030
dfalk@mayerbrown.com

